 Report No. D-2011-060              April 22, 2011




    Marine Corps Inventory of Small Arms Was
Generally Accurate but Improvements Are Needed for
           Related Guidance and Training
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ATLASS                        Asset Tracking Logistics and Supply System
CMR                           Consolidated Memorandum Receipt
DPRI                          Defense Posture Review Initiative
MCO                           Marine Corps Order
MEF                           Marine Expeditionary Force
MEU                           Marine Expeditionary Unit
MSI                           Monthly Serialized Inventory
SASSY                         Supported Activities Supply System
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704

                                                                            April 22, 2011

MEMORANDUM FOR COMMANDANT OF THE MARINE CORPS
               NAVAL INSPECTOR GENERAL

SUBJECT: Marine Corps Inventory of Sma II Arms Was Generally Accurate but
         Improvements Are Needed for Related Guidance and Training
         (Report No. 0 -20 I 1-060)

We are providing this report for your information and use . The 22 III Marine
Expeditionary Force activities in Okinawa, Japan, were accountable for 2 1,581 small
arms. The III Marine Expeditionary Force sma ll arms Registry data were generally
accurate, but the Marine Corps could improve its sma ll arms accountability process.
Improving accountability will decrease vulnerabilities to theft or loss of small anTIs. We
considered management comments on a draft of this report when preparing the fina l
report.

Comments on the draft of thi s report conformed to the requirements of 000
Directive 7650.3 and left no unreso lved issues. Therefore, we do not require any
additi onal comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).


                                             f~                   a mevtJv
                                             Patricia A. Marsh, CPA
                                             Assista nt Inspector General
                                             Financial Management and Reporting
Report No. D-2011-060 (Project No. D2010-D000FC-0133.000)                      April 22, 2011

               Results in Brief: Marine Corps Inventory of
               Small Arms Was Generally Accurate but
               Improvements Are Needed for Related
               Guidance and Training
                                                          •   small arms accountability and security
What We Did                                                   guidance was incomplete and
As III Marine Expeditionary Force (MEF)                       inconsistent, and
prepares to relocate to Guam from Okinawa,                • personnel did not receive adequate
Japan, accountability of equipment, such as                   training to maintain small arms in
small arms, is essential to ensure warfighter                 compliance with accountability
readiness. Our overall objective was to                       requirements.
determine the accuracy of the Marine Corps             Improving accountability will decrease
Small Arms Registry (Registry) data.                   vulnerabilities to theft or loss of small arms.
Specifically, we reviewed controls over
weapons held at 22 III MEF activities relocating       What We Recommend
as part of the Defense Posture Review Initiative       The Deputy Commandant, Installations and
(DPRI).                                                Logistics, should:
                                                          • update Marine Corps Order 8300.1C to
The 22 III MEF activities in Okinawa, Japan                   include additional guidance for small
were accountable for 21,581 small arms. We                    arms accountability, and
performed three tests to determine the accuracy           • establish a training program for small
of the Registry small arms data: record-to-floor              arms accountability.
testing for 2,534 small arms, floor-to-record          The Deputy Commandant, Plans, Policies, and
testing for 404 small arms, and a reconciliation       Operations, should:
of the Registry and field-level systems data.             • update small arms accountability
What We Found                                                 guidance in Marine Corps
                                                              Order 5530.14A, and
The III MEF small arms Registry data were                 • establish a training program for small
generally accurate, but the Marine Corps could                arms physical security.
improve its small arms accountability process.
During the record-to-floor testing, personnel at       Management Comments and
the 22 III MEF activities were able to account
for the 2,534 small arms we reviewed.
                                                       Our Response
However, during floor-to-record testing, six           The Deputy Commandant for Programs and
small arms at three activities were on the floor       Resources responded for the Deputy
but not assigned to those activities in                Commandant, Installations and Logistics, and
the Registry. We also identified 1,080                 the Deputy Commandant, Plans, Policies, and
discrepancies between the Registry and the             Operations. The guidance will be updated and
activities’ field-level systems during                 training will be provided. The comments are
reconciliation. Inaccurate record maintenance          responsive, and we do not require additional
occurred because Marine Corps:                         comments. Please see the recommendations
                                                       table on the back of this page.



                                                   i
Report No. D-2011-060 (Project No. D2010-D000FC-0133.000)           April 22, 2011
Recommendations Table

           Management                  Recommendations            No Additional
                                      Requiring Comment       Comments Required
Deputy Commandant, Installations                            1.a (1), 1.a (2), and 1.b
and Logistics
Deputy Commandant, Plans, Policies,                         2.a and 2.b
and Operations




                                          ii
Table of Contents

Introduction                                                                  1

      Audit Objectives                                                        1
      Background on DPRI and Small Arms Accountability                        1
      Internal Control Weaknesses in Small Arms Guidance                      2

Finding. Marine Corps Could Improve Its Small Arms Accountability             4

      Determining the Accuracy of Small Arms Data                            4
      Reviewing the Guidance for Completeness, Compliance, and Consistency   6
      Conclusion                                                             8
      Recommendations, Management Comments, and Our Response                 9

Appendices

      A. Scope and Methodology                                               11
             Prior Audit Coverage                                            12
      B. Statistical Sample                                                  14

Management Comments

      Marine Corps                                                           15
Introduction
Audit Objectives
Our objective was to determine the accuracy of the Marine Corps Small Arms Registry
(Registry) data. Specifically, we reviewed controls over weapons held at 22 III Marine
Expeditionary Force (MEF) activities relocating as part of the Defense Posture Review Initiative
(DPRI). See Appendix A for a discussion of our scope and methodology and prior coverage
related to the objective. See Appendix B for a description of our statistical sampling
methodology.
Background on DPRI and Small Arms Accountability
The DPRI established a framework for the future U.S. force structure in Japan to reduce the
burden of the U.S. military presence on Japanese communities while maintaining a continuing
presence of U.S. forces in the region. According to the “Agreement Between the Government of
the United States of America and the Government of Japan Concerning the Implementation of
the Relocation of III Marine Expeditionary Force Personnel and Their Dependents from
Okinawa to Guam,” February 17, 2009, DoD plans to move approximately 8,000 III MEF
personnel and their estimated 9,000 dependents from Okinawa, Japan, to Guam. As III MEF
prepares for the relocation, accountability of equipment such as small arms is essential to ensure
warfighter readiness.

III Marine Expeditionary Force
The mission of III MEF is to maintain a forward presence in Japan supporting the “Treaty of
Mutual Cooperation and Security between Japan and the United States of America,”
January 19, 1960, and other alliance relationships in the Asia-Pacific region. III MEF marines
and sailors conduct combat operations and humanitarian assistance and disaster relief missions.
The majority of III MEF forces are located on Okinawa, Japan.

Small Arms Accountability
The Marine Corps Order (MCO) 8300.1C, “Marine Corps Serialized Control of Small Arms
System,” provides guidance on life-cycle serial number control over all Marine Corps small
arms. Small arms are defined as handguns; shoulder-fired weapons; light automatic weapons
through heavy machine guns, including .50 caliber machine guns; anti-tank missile launchers;
mortars (up to and including 81mm); man-portable rocket launchers; grenade launchers; and
individually operated weapons that are portable or can be fired without special mounts or firing
devices. Small arms require a high degree of protection and control. Accurate small arms data
are required to maintain accountability. As of April 2010, the 22 III MEF activities were
accountable for 21,581 small arms.

Marine Corps Small Arms Registry
The Registry maintains records by serial number for all small arms within the Marine Corps.
When activities report transfers of small arms in a timely and accurate manner, the Registry
provides visibility of Marine Corps small arms from the time of receipt until disposal. The



                                                1
Crane Division, Naval Surface Warfare Center, maintains the Registry, which is independent of
the Marine Corps small arms field-level systems.

Marine Corps Small Arms Field-Level Systems
The Supported Activities Supply System (SASSY) is the intermediate-level system used to
maintain accountability and visibility of inventories and requisitions within III MEF. SASSY
relies on the Asset Tracking Logistics and Supply System (ATLASS) for unit-level information.
ATLASS is the Marine Corps’ integrated supply, maintenance, and materiel readiness system for
supporting asset management. ATLASS maintains accountable records, including the serial
numbers of Marine Corps small arms. ATLASS generates the Consolidated Memorandum
Receipt (CMR), which is a listing of an activity’s equipment, including small arms. In March
2010, III MEF began implementing the Global Combat Support System–Marine Corps. When
fully implemented, the system will provide a shared data environment to replace a number of
legacy systems, including SASSY and ATLASS.

Marine Corps Small Arms Policies
The Headquarters, Marine Corps, Deputy Commandant, Plans, Policies, and Operations,
prescribed in MCO 5530.14A, “Marine Corps Physical Security Program Manual,” June 5, 2009,
standards and procedures for protection against loss or theft of arms, ammunition, and explosives
at Marine Corps activities. These standards promote attitudes and habits conducive to
maintaining good security practices and eliminating existing or potential causes of security
breaches and vulnerabilities. The procedures include the performance of physical security
surveys and Monthly Serialized Inventories (MSIs).

The Headquarters, Marine Corps, Deputy Commandant, Installations and Logistics, provided
guidance in MCO 8300.1C, “Marine Corps Serialized Control of Small Arms System,”
March 27, 1984, to augment physical security controls by maintaining permanent records, by
serial number, for all small arms within the Marine Corps. MCO 8300.1C requires the daily
reporting of small arms transfers between activities to the Registry. Specific procedures for
processing small arms transactions are contained in the Marine Corps Users Manual 4400-124,
“Fleet Marine Force SASSY Using Unit Procedures Users Manual,” April 1984.

The Marine Corps Bulletin 4440, “Equipment Accountability: Policy for Control of Serialized
Small Arms in Support of U.S. Central Command Overseas Contingency Operations,”
February 18, 2010, provides policies for the effective management and control of serialized
small arms to ensure accurate equipment accountability in both deployed and garrison
environments. The Bulletin includes new guidance on transferring small arms to activities
deployed in support of Overseas Contingency Operations and the reporting of those transfers to
the Registry.
Internal Control Weaknesses in Small Arms Guidance
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal controls that
provides reasonable assurance that programs are operating as intended and to evaluate the
effectiveness of the controls. We identified internal control weaknesses related to
noncompliance with small arms accountability guidance. We also identified internal control

                                               2
weaknesses related to inconsistent and incomplete small arms accountability and security
guidance. Implementing all recommendations in this report will improve the internal controls
over the administration of the small arms program. We will provide a copy of the report to the
senior officials responsible for internal controls within the Marine Corps.




                                               3
Finding. Marine Corps Could Improve Its Small
Arms Accountability
The III MEF small arms Registry data were generally accurate, but the Marine Corps could
improve its small arms accountability process. Although personnel at the 22 III MEF activities
were able to account for the 2,534 small arms 1 we reviewed during record-to-floor testing, we
identified:

    •   6 small arms at 3 activities that were on the floor but not recorded in the Registry for
        those activities, and
    •   1,080 discrepancies between the Registry and the III MEF field-level systems.

Inaccurate record maintenance occurred because Marine Corps small arms accountability and
security guidance was incomplete and inconsistent. Also, Marine Corps personnel did not
receive adequate training to maintain small arms in accordance with accountability requirements.
Improving accountability will decrease vulnerabilities to theft or loss of small arms.

Determining the Accuracy of Small Arms Data
We performed three types of testing to determine the accuracy of the Registry small arms data.
Specifically, we performed record-to-floor testing to verify the existence of 2,534 small arms
across the 22 III MEF activities. Record-to-floor testing is a comparison of the data in the
information system to the items on-hand in the activity's armory. We also performed floor-to-
record testing for a nonstatistical sample of 404 small arms to determine the completeness of the
small arms data. Floor-to-record testing is a comparison of the items in the activity’s armory to
the data recorded in the information system. Finally, we performed a reconciliation of the small
arms data in the Registry and III MEF field-level systems for each activity. Reconciliation is a
comparison of data recorded in one system for a specific activity to data recorded in another
system for that same activity.

Verification of Small Arms Existence
During the record-to-floor testing, personnel at the 22 III MEF activities were able to account for
                                         the 2,534 small arms we reviewed. We verified the
  We verified the existence of 2,534
                                         existence of 2,534 small arms by either observing each
  small arms by either observing
                                         weapon or reviewing documentation justifying why the
  each weapon or reviewing
                                         weapon was not in the armory. This documentation
  documentation justifying why the
                                         included shipping and receiving documents, ordnance
  weapon was not in the armory.
                                         custody receipts, unit letters of transmittal, signed CMRs
for small arms held at other locations, and travel orders that included the specific small arms
issued to deployed Marines.




1
 These weapons were a statistical sample of 2,231 small arms plus an additional 303 small arms at one activity. See
Appendix B for a discussion of the sampling methodology.

                                                        4
Incomplete Small Arms Data
During the floor-to-record testing at 21 activities, 2 we verified that 398 small arms were
accurately recorded in the Registry. However, we identified 6 small arms at 3 activities that
were on the floor but not recorded in the Registry for those activities. Specifically, we identified
two weapons at the Marine Aircraft Group 36 armory, three weapons at the Combat Logistics
Regiment 3 armory, and one weapon at the 3rd Reconnaissance Battalion armory that were not
included in the Registry for those activities. In addition, the five small arms at Marine Aircraft
Group 36 and Combat Logistics Regiment 3 armories were also not included in the activities’
field-level system. The data were incomplete because the small arms accountability and security
guidance was incomplete. Also, Marine Corps personnel did not receive adequate training to
maintain small arms in compliance with accountability requirements. The incomplete data could
result in a loss of visibility over the small arms, which would increase their vulnerability to theft
or loss during the relocation.

Small Arms Data Discrepancies
The Marine Corps did not maintain accurate records for their small arms at 14 of 22 activities.
We identified 1,080 discrepancies between the Registry and the III MEF field-level systems
                                       during reconciliation of more than 21,000 small arms.
  …Marine Corps personnel did          At 10 of the 22 activities, we identified 673 small arms that
  not receive adequate training to     were recorded in the field-level systems but not assigned to
  maintain small arms in               the activity in the Registry. For example, III MEF
  accordance with accountability       Headquarters Group received 49 small arms on
  requirements.                        January 23, 2010. The III MEF Headquarters Group
                                       recorded the small arms accurately in the field-level system;
however, they did not report the receipt of these small arms to the Registry until April 2010
when we informed them of the discrepancy. Conversely, we identified 407 small arms at 12 of
the 22 activities that were assigned to the activity in the Registry but not included in the
activity’s field-level system. Inaccurate record maintenance occurred because the small arms
accountability and security guidance was inconsistent. In addition, Marine Corps personnel did
not receive adequate training to maintain small arms in accordance with accountability
requirements. Marine Corps personnel who use inconsistent guidance or do not receive the
proper training are more likely to maintain inaccurate small arms records, leading to
discrepancies between the systems. These discrepancies may increase the vulnerability of small
arms to theft or loss.




2
  We did not perform floor-to-record testing for Combat Logistics Regiment 35 because III MEF personnel were
unable to distinguish which Combat Logistics Regiment 35 units were going to relocate under DPRI. Therefore, at
the Combat Logistics Regiment 35, we reviewed the entire universe of 359 small arms during record-to-floor testing
to ensure full coverage.

                                                        5
Table 1 summarizes the discrepancies between the field-level systems and the Registry data for
the small arms we reviewed at 22 III MEF activities.

                     Table 1. Discrepancies in Small Arms System Data
                                                     Field-Level      Registry Data
                   Activity                          System Data      Not in Field-
                                                    Not in Registry   Level System
 3rd Marine Division                                       27                0
 3rd Battalion, 12th Marine Regiment                        0                4
 3rd Maintenance Battalion                                216                5
 3rd Medical Battalion                                    146               18
 3rd Reconnaissance Battalion                              16                0
 3rd Supply Battalion                                     201              187
 5th Air-Naval Gunfire Liaison Company                      0                0
 7th Communication Battalion                                0                0
 9th Engineer Support Battalion                             5               17
 12th Marine Regiment                                       1                2
 Combat Assault Battalion                                   5               30
 Combat Logistics Regiment 3                                0                8
 Combat Logistics Regiment 35                               0                1
 Combat Logistics Regiment 37                               1                1
 III MEF Headquarters Group                                55              133
 Marine Air Control Squadron 4                              0                0
 Marine Air Support Squadron 2                              0                0
 Marine Aircraft Group 36                                   0                0
 Marine Tactical Air Command Squadron 18                    0                0
 Marine Wing Communication Squadron 18                      0                0
 Marine Wing Headquarters Squadron 1                        0                0
 Marine Wing Support Squadron 172                           0                1
   Total                                                  673              407

Reviewing the Guidance for Completeness, Compliance,
and Consistency
Small Arms Accountability and Security Guidance Was Incomplete
Our floor-to-record testing showed that small arms data in the Registry and field-level systems
were incomplete. This occurred because the Marine Corps small arms accountability and
security guidance was incomplete.



                                                6
MCO 5530.14A provides no guidance for maintaining control and visibility of small arms that
are stored in an activity’s armory but not included in the activity’s CMR and Registry data.
Specifically, MCO 5530.14A does not require MSIs to identify when small arms are on-hand but
not listed on the CMR. In addition, MCO 5530.14A does not provide procedures for the control
of small arms owned by one activity and being stored in another activity’s armory.

For example, at one activity, we identified two small arms in the armory that were not included
in the CMR or Registry data for the activity. Activity personnel stated that these two small arms
in the armory were part of an entire rack of small arms belonging to a Marine Expeditionary Unit
(MEU). 3 However, the activity could not provide documentation that these small arms were
approved to be stored in the activity’s armory. In addition, neither the activity nor the MEU
performed MSIs to account for these small arms.

If MCO 5530.14A provided procedures to document and account for all small arms maintained
in an activity’s armory, the activity could have detected the incomplete small arms data and
prevented the loss of visibility over the MEU’s small arms.

Personnel Did Not Always Comply With Small Arms Guidance
Marine Corps personnel did not receive adequate training to maintain small arms in compliance
with accountability requirements. III MEF officials stated they were aware of issues with record
retention of small arms documentation. They stated Marine Corps personnel responsible for
small arms accountability may be inexperienced and unfamiliar with all of the responsibilities
outlined in small arms accountability guidance.

MCO 8300.1C states that Marine Corps activities possessing small arms are required to report
                               the serial numbers of those small arms to the Registry. Marine
  …supply personnel did        Corps activities are also required to notify the Registry daily about
  not report transfers of      small arms transfers. However, we identified instances where
  small arms, as required.     supply personnel did not report transfers of small arms, as
                               required. For example, a pistol was shipped to Quantico, Virginia,
for disposition on February 17, 2010. However, the activity did not report the shipment to the
Registry until we notified the activity of the issue on April 13, 2010.

In addition, Marine Corps Users Manual 4400-124 guidance states that the responsible personnel
must ensure that the field-level system records are kept current daily. However, we identified
instances where supply personnel did not record transfers of small arms, as required. For
example, supply personnel at some activities were not processing small arms transfers as they
occurred. The supply personnel thought small arms should not be removed from the field-level
system until the small arms were reassigned to another activity within the Registry. Although
small arms accountability procedures for recording transactions were in place, the accountability




3
  A MEU is an activity, consisting of Marines temporarily assigned from their parent activities, with the ability to
rapidly organize for combat operations. Marines assigned to a MEU are required to bring small arms from their
parent activity.

                                                           7
of small arms could be improved if the personnel accountable for small arms received training on
a routine basis.

Small Arms Guidance Was Inconsistent
The Marine Corps small arms accountability and security guidance was inconsistent. During
reconciliation, we identified incomplete and inaccurate data. Specifically, MCO 8300.1C,
MCO 5530.14A, and Marine Corps Bulletin 4440 instruct personnel to use different asset listings
and different frequencies for performing serialized inventories of small arms. Table 2
identifies the different asset listings and inconsistencies in the guidance for performing
serialized inventories.

             Table 2. Inconsistent Guidance for Performing Serialized Inventories
                                                  Serialized Inventories
          Guidance                       Use CMR*     Use Registry       Frequency
  MCO 8300.1C                                               X              Cyclic
  MCO 5530.14A                               X                            Monthly
  Marine Corps Bulletin 4440                 X              X             Monthly
 *The CMR is a report generated from the field-level systems

Because of the inconsistent guidance, some III MEF activities provided instructions to perform
the inventory using only the CMR, while others provided instructions to use only the Registry,
                                         and still others provided instructions to use both. As a
  If the guidance had been consistent
                                         result, some activities did not detect all discrepancies
  and personnel at the activities had
                                         between the field-level system and the Registry. If the
  provided instructions to perform
                                         guidance had been consistent and personnel at the
  inventories using both the Registry
                                         activities had provided instructions to perform
  and CMR, they could have detected
                                         inventories using both the Registry and CMR, they
  the incomplete and inaccurate
                                         could have detected the incomplete and inaccurate
  small arms data.
                                         small arms data. The Deputy Commandant,
Installations and Logistics, and Deputy Commandant, Plans, Policies, and Operations, should
ensure consistency among MCOs 8300.1C and 5530.14A and Marine Corps Bulletin 4440. In
addition, personnel accountable for small arms should be trained on the updated guidance.

Conclusion
The Marine Corps small arms accountability and security guidance was incomplete and
inconsistent. In addition, Marine Corps personnel did not receive adequate training to maintain
small arms in compliance with small arms accountability requirements. These internal control
weaknesses increase the risk that incomplete and inaccurate small arms data will go undetected.
Accurate data are required to maintain accountability and visibility over small arms. Without
proper accountability and visibility over small arms, warfighter readiness could be negatively
impacted, and small arms could become vulnerable to security breaches, including theft or loss.




                                                       8
Recommendations, Management Comments, and Our
Response
1. We recommend that the Deputy Commandant, Installations and Logistics:

      a. Update Marine Corps Order 8300.1C to include additional guidance for small
arms accountability. Specifically, the guidance should include:

             (1) Procedures to account for all small arms in the activity’s armory, Marine
Corps Small Arms Registry, and field-level system while conducting Monthly Serialized
Inventories.

              (2) Procedures to account for small arms stored in an activity’s armory that
are assigned to a different activity.

Marine Corps Comments
The Deputy Commandant for Programs and Resources responded for the Deputy Commandant,
Installations and Logistics. He agreed and stated that the Marine Corps would incorporate the
information into Marine Corps Order 8300.1C, which was scheduled to be published in
April 2011. The Deputy Commandant stated that the Marine Corps will provide an interim
status report by May 31, 2011, on corrective actions taken.

      b. Establish a training program to ensure that personnel accountable for small
arms are routinely trained on small arms accountability guidance.

Marine Corps Comments
The Deputy Commandant for Programs and Resources responded for the Deputy Commandant,
Installations and Logistics. He agreed and stated that the Marine Corps would establish an
appropriate training program by March 31, 2011. The Deputy Commandant stated that the
Marine Corps will provide an interim status report by April 30, 2011, on corrective actions taken.

2. We recommend that the Deputy Commandant, Plans, Policies, and Operations:

       a. Update the small arms accountability guidance in Marine Corps Order 5530.14A
consistent with Marine Corps Bulletin 4440 and the updates to Marine Corps
Order 8300.1C.




                                                9
Marine Corps Comments
The Deputy Commandant for Programs and Resources responded for the Deputy Commandant,
Plans, Policies, and Operations. He agreed and stated that the Marine Corps would incorporate
the information into Marine Corps Order 8300.1C, which was scheduled to be published in
April 2011. He also stated that the small arms accountability guidance in Marine Corps
Order 5530.14A would be updated by the 2nd Quarter of FY 2012 to be consistent with Marine
Corps Bulletin 4440 and Marine Corps Order 8300.1C. The Deputy Commandant stated that the
Marine Corps will provide an interim status report by May 31, 2011, on corrective actions taken.

      b. Establish a training program to ensure that personnel accountable for small
arms are routinely trained on small arms physical security guidance.

Marine Corps Comments
The Deputy Commandant for Programs and Resources responded for the Deputy Commandant,
Plans, Policies, and Operations. He agreed and stated that the Marine Corps would establish an
appropriate training program by March 31, 2011. The Deputy Commandant stated that the
Marine Corps will provide an interim status report by April 30, 2011, on corrective actions taken.

Our Response
The Deputy Commandant for Programs and Resources comments are responsive, and the actions
meet the intent of the recommendations.




                                               10
Appendix A. Scope and Methodology
We conducted this performance audit from February 2010 through February 2011 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To determine the accuracy of the Registry data as a gauge of the effectiveness of internal
controls over small arms held at activities relocating from Okinawa to Guam as part of the DPRI,
we reviewed the Marine Corps’ process for safeguarding and accounting for small arms. The
Registry included a universe of 21,581 small arms stored at 22 III MEF activities relocating as
part of DPRI. We used statistical sampling to determine the accuracy of the small arms Registry
data. (See Appendix B for a discussion of the statistical sample.) We used nonstatistical
sampling to determine the accuracy of the small arms data in the field-level systems and
Registry. To accomplish the audit objective, we did the following.

   •   We reviewed small arms regulations and interviewed officials from Headquarters, Marine
       Corps; Crane Division, Naval Surface Warfare Center; and armories and supply offices
       for the following 22 III MEF activities on Okinawa, Japan, to identify the Marine Corps’
       process for accounting for and safeguarding small arms.

          3rd Marine Division                    Combat Logistics Regiment 35
          3rd Battalion, 12th Marine             Combat Logistics Regiment 37
             Regiment                            III MEF Headquarters Group
          3rd Maintenance Battalion              Marine Air Control Squadron 4
          3rd Medical Battalion                  Marine Air Support Squadron 2
          3rd Reconnaissance Battalion           Marine Aircraft Group 36
          3rd Supply Battalion                   Marine Tactical Air Command
          5th Air-Naval Gunfire Liaison              Squadron 18
             Company                             Marine Wing Communication
          7th Communication Battalion                Squadron 18
          9th Engineer Support Battalion         Marine Wing Headquarters
          12th Marine Regiment                       Squadron 1
          Combat Assault Battalion               Marine Wing Support
          Combat Logistics Regiment 3                Squadron 172

   •   We performed record-to-floor testing of small arms at 22 armories over a sample of
       2,534 out of 21,581 small arms to determine the accuracy of the small arms data in the
       Registry.

   •   We performed floor-to-record testing of small arms at 21 armories by nonstatistically
       selecting a sample of 404 small arms to verify the accuracy and completeness of the
       small arms recorded in the field-level system and the Registry.


                                                11
   •   We compared the Registry and field-level system data for the 22 activities to ensure that
       the data were accurately recorded in both systems. When we identified a discrepancy, we
       requested documentation to reconcile the data.

   •   We reviewed the physical security and internal control processes over small arms at the
       22 activities located on Okinawa, Japan, to ensure that the small arms were properly
       safeguarded.
Delay in Acquiring Data
On February 26, 2010, we requested audit universe data from Headquarters, Marine Corps,
personnel. They did not provide the data until April 7, 2010, which delayed the start of our audit
fieldwork by approximately a month.
Use of Computer-Processed Data
To perform this audit, we obtained computer-processed data from the Registry for a universe of
small arms held at the 22 III MEF activities under review. We determined data reliability by
performing record-to-floor testing. Specifically, we either physically observed the small arms or
obtained documentation, including shipping and receiving documents, ordnance custody receipts,
and unit letters of transmittal, to justify why a small arm was not in the armory. We also
reviewed the results of inventories and performed floor-to-record testing on nonstatistically
selected items. In addition, we compared the Registry data to reports generated by the ATLASS
and Global Combat Support System–Marine Corps field-level systems. Our assessment
indicated that the data within the Registry were sufficiently reliable for the purpose of this audit.
Use of Technical Assistance
The DoD OIG Quantitative Methods and Analysis Division analysts provided technical
assistance throughout the statistical sampling process. In support of record-to-floor testing, the
Quantitative Methods and Analysis Division analysts provided a statistical sample of small arms
for the 22 III MEF activities. See Appendix B for detailed information about the work
performed by the Quantitative Methods and Analysis Division analysts.
Prior Audit Coverage
During the last 5 years, the Naval Audit Service has issued five reports discussing small arms
accountability. Naval Audit Service reports are not available over the Internet.

Navy
Naval Audit Service Report, N2010-0017, “Followup on Internal Controls for Marine Corps
Small Arms Shipments,” March 17, 2010
Naval Audit Service Report, N2009-0052, “Allowance, Inventory, and Maintenance Production
of Marine Corps Small Arms,” September 30, 2009
Naval Audit Service Report, N2008-0047, “Department of the Navy Small Arms In-Transit
Accountability,” August 27, 2008




                                                 12
Naval Audit Service Report, N2008-0008, “Marine Corps Small Arms,” November 23, 2007
Naval Audit Service Report, N2007-0029, “The Navy’s Small Arms and Weapons Program,”
May 1, 2007




                                          13
Appendix B. Statistical Sample
Population
The universe consisted of 21,581 small arms assigned to 22 III MEF activities.
Measures
We used an attribute measure to test for existence, to determine the accuracy of the Registry
data, and to determine whether the III MEF activities had adequate controls over the small arms.
Parameters
We used a 95 percent confidence interval.
Sample Plan
We used a stratified attribute sample design for this project, stratifying the population into one
stratum for each of the 22 III MEF activities that were to relocate as part of the DPRI. In
addition, the Quantitative Methods and Analysis Division analysts stratified the population by
the type of small arms at each activity. If there were 15 or more of one type of small arms at an
activity, we would randomly select samples of the small arms to test for existence for that
particular type of small arm. If there were fewer than 15 of one type of small arms at an activity,
we would test for the existence of 100 percent of that type of small arms. After stratifying the
population by location and type of small arms, we used the random number generator in Excel to
select a random sample of 2,231 small arms to test at the 22 III MEF activities.

For one activity, the III MEF personnel were unable to distinguish which units were going to
relocate under DPRI. Therefore, instead of reviewing the sampled 56 small arms for this
location, we reviewed the entire universe of 359 small arms to ensure full coverage. This
increased our sample size to a total of 2,534 small arms.
Analysis and Interpretation
The Quantitative Methods and Analysis Division analysts did not project the results because the
audit team did not find any missing weapons.




                                                14
Marine Corps Comments





                                 DEPARTMENT OF THE NAVY
                            HEADQUARTERS UNITED
                                          UNITEO STATES MARINE
                                                        MARlNE CORPS
                                  3000 MARINE CORPS PENTAGON
                                    WASHINGTON, DC 20350-3000
                                                   20350..3000                  R£FfR TO:
                                                                       IN R£PlV RUm
                                                                       INR£Pl.V
                                                                       7500
                                                                       RFR-BO
                                                                       10 Mar 11

       From:    Commandant of the Marine Corps
       To:      Deputy Inspector General for Auditing , Defense Business
                  Operations, Department of Defense Office of Inspector
                  General

       Subj
       SUbj :   COMMANDANT OF THE MARINE CORPS (CMC) OFFICIAL COMMENTS
                TO DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL
                (OODIG) DRAFT REPORT D2010
                                     D20 1 0 - DOOOFC-0133 . 000
                                                             000,, "MARINE CORPS
                INVENTORY OF SMALL ARMS GENERALLY ACCURATE BUT
                IMPROVEMENTS NEEDED FOR RELATED GUIDANCE AND TRAINING , "
                DATED FEBRUARY 10 , 2011

       Ref:     (a) DODIG memo of February 10, 2011

       Encl :   (1) CMC Official Responses

       1. Official responses required by the reference are provided at
       the
       t.he enclosure .
                            Click to add JPEG file
       2 . Enclosure (1) was coordinated wit.h
       2.                                  with Headquarters , U. S .
               Corps , Programs & Resources; Installations & Logistics;
       Marine Corps,
       Plans , Policies , & Operations ; Marine Corps Logistics Command
                                                                Command:;
       and Marine Corps Forces Pacific .

       3 . The Marine Corps will provide DODIG an interim status report
       on corrective actions taken for recommendations 1.b. and 2 . b.
                                                                    b . by
       30 April 2011; and for recommendations 1.a and 2.a.
                                                      2.a . by 31 May
       2011.

       4. The Marine Corps appreciates the opportunity to respond to
       the report
           report..

                                            ...                ..
                              •
                                                   ~~

       Copy to :
                                          I   puty Commandant
                                            for Programs and Resources

       NAVINSGEN (N4)
       DMCS
                                                                            7510
                                                                            LPC-2


                                        MOB I LITY DIVISION COMMENTS on
          PLANS, POLICIES AND STRATEGIC MOBILITY
LOGISTICS PLANS.
Programs and Resources Department (P&R), Audit and Review Branch, request for
response to recommendations listed in Draft Report No. D20410-DOOOFC-0133.000

Subj:
Subj :   REQUEST FOR RESPONSE TO THE
                                 THB DEPARTMENT OF DEFENSE INSPECTOR GENERAL
         AUDIT DRAFT REPORT D20410-DOOOFC-0133 . 000, -MARINE
                            D20410-DOOOFC-0133.000,   -MARINS CORPS INVBNTORY
                                                                    INVBNTORY OF
         SMALL ARMS"

Ref:      (al Mea
          (a) MCO 7510. JE
                  7510.3B

1.     The subjec t report recommends that the Deputy Commandant,
                                                      Commandant. Installations
and Logistics:

      a,                                                         gui dance for
      4. Update Marine Corps Order B30C.le to include additional guidance
small arms accountability. Specifically.
                           Specifically, the guidance should include:

            (1) Procedures to account for all small arms in the activity's
armory, Marine Corps Smal
                     Sma lll Arms Registry.
                                  Registry, and field-level system while
conducting Monthly Serialized Inventories ·.'.

            (2)  Procedures to account for small arms stored in an activity'S
                                                                   activity's
armory that are assigned to a different activity.
                         Click to add JPEG file
      bb.. Bstab lish a training program to ensure that personnel accoun table
for small arms are routinely
                      rout inely trained on
                                         o n small arms accountabi l ity guidance.

ONe
ONC rreaponae
      Qaponae tto
                o Recommand.tioD
                  Re commanda tioD l. a. Concur.
                                   l.a.            Recommendations have been
incorporated into the revision of MOO S300.lC,
                                          S300.1C, which is currently under
review and pending signature. Estimated date for publication is Apr 2011.

Additionally, the Physical security Manual {MOO
                                           (MOO SS30.l4Al
                                                SS30.14A) is under review and
projected to be published during 2~ Quarter of FY12.

ONC rre.ponse
      e . p onse to RReco~endation
                      ec o~endati on l.b .  Concur. Currently, t he Field Supply &
Maintenance
Maintenance Analysis Offices (FSMAOs)
                                   ( FSMAOs) provide additional, on-site training.
I&L Department will coordinate with Physical Security
                                                    Securi ty Division (PSD),
                                                                       (PSO) , school
house personnel, FSMAO and IG inspection teams, to establish a training
program to ensure that personnel accountable for small  smal l arms are routinely
trained on small arms physical security guidance. Course of action will be
provided NLT 31 March 2011.

2. Recommend that the Deputy
                      De~uty Commandant, Plans, Policies and Operations :


        a. Update the small arms accountability guidance in Marine Corps Order
5530
SS30 . 14A
       l4A consistent with
                        wi th Marine Corps Bulletin 4440 and the updates to Marine
Corps Order S300.IC
              B300.le .

      b . Establish a training
                      tra1n1ng program to ensure personnel accountable for
small arms are routinely trained on small arms
                                           arma physical security guidance.

CMC rresponse
      esponse to Re commendation 2...
                 Recommendation  2. a . Concur. Recommendations have been
incorporated into the revision of MCOMOO SlOO.le,
                                         S300.lC, which is currently under
review and pending signature
                     signature.. Estimated date for publ ication is Apr 2011.
                                                                        2011 .



                                          1                                 ENCL (1)
                                                                                 (1)
Subj:   REQUEST FOR RSSPONSE
                    RESPONSE TO THE DEPARTMENT OF DEFENSE
                                                    DEPENSE INSPECTOR GENERAL
        AUDIT DRAFT REPORT D20410-DOOOFC-0133.000,
                           D20410-DOOOFC-0133 .0 00, -MARINE CORPS INVENTORY OF
        SMALL ARMS"

Additionally , PSD 1n
Additionally,       in coordinat i on with LPC will update the small arms
accountability guidance in Marine Corps Order S530.14A
                                                  S5JO.14A in order to be
consistent
cons i stent with Marine Corps Bulletin 4440 and tbe
                                                   the updates to
                                                               t o Mari
                                                                   Marine
                                                                        ne Corps
Order 830a.le.
        830C.le. Estimated date of completion is 2M2~ Quarter of FY12.

ewe
CMC respoDse
     response to Recommend
                   Rec ommendation
                               a tion 2.h
                                       2. h.. Concur. CUrrently.
                                                      CUrrently, the Field Supply &
Maintenance Analysis
             Anal ysis Offices
                        Of fi ces (FSMAOs) provide additional, on-site
                                                                 on- site training
                                                                          training..
1&L
I&L will coordinate with Physical Security Division (PSo), school school house
personnel, FSMAO and 1G IG inspection teams, to establish a training
                                                               traini ng program to
ensure that personnel accountable for small arms are routinely
                                                           routinel y trained on
small arms physical security guidance.
                                   guidance . Course of action will be provided NLT
3 1 March
31        2011 .
    March 2011.




                                       )        L   do"
                                               . W. SIMMONS

                      Click to add JPEG file




                                           2                              ENCL (1)
18
